 FOLLOW-UP REVIEW: PERFORMANCE OF
U.S. AIRLINES IN IMPLEMENTING SELECTED
 PROVISIONS OF THE AIRLINE CUSTOMER
          SERVICE COMMITMENT

         Department of Transportation

         Report Number AV-2007-012
        Date Issued: November 21, 2006
U.S. Department of                        The Inspector General    Office of Inspector General
Transportation                                                     Washington, DC 20590

Office of the Secretary
of Transportation


November 21, 2006

The Honorable John L. Mica
Chairman
Committee on Transportation and Infrastructure
Subcommittee on Aviation
U.S. House of Representatives
Washington, DC 20515

Dear Chairman Mica:

Per your request, we are enclosing our “Follow-Up Review: Performance of U.S.
Airlines in Implementing Selected Provisions of the Airline Customer Service
Commitment.” In your request, you asked that we follow up on the performance
of U.S. airlines in implementing provisions of the Airline Customer Service
Commitment.

This report provides our analysis of the performance of 13 Air Transport
Association (ATA) member airlines, along with two non-ATA airlines, in
implementing selected provisions of the Commitment that have an immediate
impact on passengers and the issues that derive from those provisions.

Provisions selected for this review include notification of delays and cancellations,
overbooking and denied boardings, frequent flyer programs, and accommodation
for passengers with disabilities and special needs. We also reviewed how the
Department of Transportation has used the additional resources Congress
appropriated to oversee and enforce air travel consumer protection requirements.

Based on the results of our review, we are making a series of recommendations to
the Department of Transportation to strengthen its oversight and enforcement of
air traveler consumer protection rules.

We want to express our appreciation to members of ATA, the two non-ATA
airlines, and the Department for their cooperation.
                                                                                    2

If I can answer any questions or be of further service, please feel free to call me on
(202) 366-1959 or Todd J. Zinser, Deputy Inspector General, at (202) 366-6767.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure (Report No. AV-2007-012)
                                                Table of Contents
Transmittal Letter
INTRODUCTION.........................................................................................................................................1
RESULTS IN BRIEF ....................................................................................................................................3
BACKGROUND: SINCE 2001, THERE HAS BEEN A PROFOUND CHANGE IN THE AIR
CARRIER INDUSTRY ..............................................................................................................................10
    TRAFFIC AND CAPACITY ...........................................................................................................................11
    DELAYS AND CANCELLATIONS .................................................................................................................11
    WORKFORCE REDUCTIONS .......................................................................................................................12
    COMPLAINTS .............................................................................................................................................12
FINDINGS ...................................................................................................................................................13
    AIRLINES STILL NEED TO EMPHASIZE THE IMPORTANCE OF PROVIDING TIMELY AND ADEQUATE FLIGHT
    INFORMATION AND ESTABLISH TARGETS FOR REDUCING DELAYS ...........................................................13
    IMPROVEMENTS ARE NEEDED IN HANDLING BUMPED PASSENGERS ........................................................18
    STRAIGHTFORWARD, COMPREHENSIVE REPORTING IS NEEDED ON FREQUENT FLYER AWARD
    REDEMPTIONS ...........................................................................................................................................21
    AIRLINES’ NEED TO FOCUS ON PROMPTLY TRAINING PERSONNEL WHO ASSIST PASSENGERS WITH
    DISABILITIES .............................................................................................................................................27
    AIRLINES NEED TO RESUME EFFORTS TO SELF-AUDIT THEIR CUSTOMER SERVICE PLANS .....................31
    THE DEPARTMENT NEEDS TO IMPROVE ITS OVERSIGHT OF AIR TRAVELER CONSUMER PROTECTION
    REQUIREMENTS ........................................................................................................................................32
RECOMMENDATIONS ............................................................................................................................38
AGENCY COMMENTS.............................................................................................................................39
EXHIBIT A. AIRLINE CUSTOMER SERVICE COMMITMENT.....................................................40
EXHIBIT B. OBJECTIVES, SCOPE AND METHODOLOGY, AND PRIOR COVERAGE ...........43
    OBJECTIVES ..............................................................................................................................................43
    SCOPE AND METHODOLOGY .....................................................................................................................43
    PRIOR AUDIT COVERAGE ..........................................................................................................................44
EXHIBIT C. LIST OF AIRPORTS VISITED ........................................................................................46
                                                                                                                    1


INTRODUCTION
Airline customer service issues took
                                                             Table 1. Provisions of the
center stage in 1999, as aviation delays                     Airlines Customer Service
and cancellations began to escalate                          Commitment
rapidly.      Following congressional                        • Offer the lowest fare available
hearings on these service issues,                            • Notify customers of known delays, cancellations,
                                                               and diversions
member airlines of the Air Transport                         • Deliver baggage on time
Association     (ATA)1     agreed     to                     • Support an increase in the baggage liability limit
voluntarily    execute    the    Airline                     • Allow reservations to be held or canceled
                                                             • Provide prompt ticket refunds
Customer Service Commitment (see                             • Properly accommodate disabled and special needs
Table 1 and Exhibit A).2 Aviation                              passengers
                                                             • Meet customers’ essential needs during long
delays and cancellations continued to                          on-aircraft delays
worsen, eventually reaching their peak                       • Handle “bumped” passengers with fairness and
during the summer of 2000. In that                             consistency
                                                             • Disclose travel itinerary, cancellation policies,
summer,3 more than one in four flights                         frequent flyer rules, and aircraft configuration
(28.3 percent) was delayed, with an                          • Ensure good customer service from code-share
                                                               partners
average delay of 54 minutes.                                 • Be more responsive to customer complaints

The Department of Transportation’s Office of Inspector General was directed by
Congress to evaluate the effectiveness of the Commitment and the customer
service plans of individual ATA airlines. We issued our final report4 in February
2001. Overall, we found the ATA airlines were making progress toward meeting
the Commitment, which has benefited air travelers in a number of important areas.

Since we issued our 2001 report, there has been a profound change in the air
carrier industry because of severe challenges to profitability and even viability.
During the past 5 years, the air carrier industry has faced a series of major
challenges, including a weakened economy; the terrorist attacks of September 11,
2001; the Severe Acute Respiratory Syndrome epidemic; the war in Iraq; soaring
fuel prices; and continued fear of terrorism in the air. The air carriers made
unprecedented changes to their operations to regain profitability. Several air
carriers have gone into bankruptcy and others have liquidated. The remaining air
carriers have struggled to keep afloat as demand has softened, primarily in the
high-fare business travel market. Nevertheless, the air carriers have improved
their financial condition during 2006 by taking advantage of strong passenger
demand competing for fewer available seats, which enabled them to increase fares.

1
    The Air Transport Association is the trade association for the United States’ leading air carriers. Its members
    transport over 95 percent of all the passenger and cargo traffic in the United States.
2
    ATA signed the Commitment on behalf of 14 member airlines as of June 1999.
3
    June 1, 2000, through August 31, 2000.
4
    OIG Report No. AV-2001-020, “Final Report on Airline Customer Service Commitment,” February 12, 2001. See
    OIG reports on this website: www.oig.dot.gov.
                                                                                                           2

In June 2005, Representative Mica, Chairman of the House Subcommittee on
Aviation, requested that we follow up on the performance of U.S. air carriers in
implementing provisions of the Commitment since the issuance of our 2001
report.

Unlike our prior work, which reviewed each provision, this review focuses on the
following Commitment provisions:5

      • notification of delays and cancellations,
      • accommodating passengers with disabilities and special needs,
      • frequent flyer program issues, and
      • overbooking and denied boardings.

The review also followed up a promise made by the ATA member airlines to
establish quality assurance and performance measurement systems to measure
compliance with the Commitment provisions and conduct internal audits. We also
reviewed how the Department of Transportation (DOT) has used the additional
resources Congress appropriated to oversee and enforce air travel consumer
protection requirements. Our objectives, scope and methodology, and prior audit
coverage are presented in Exhibit B.

During the review, we visited and tested implementation of the selected
Commitment provisions by the 14 ATA member airlines: Alaska Airlines, Aloha
Airlines, American Airlines, ATA Airlines (formerly American Trans Air),
America West Airlines, Continental Airlines, Delta Air Lines, Hawaiian Airlines,
JetBlue Airways,6 Midwest Airlines, Northwest Airlines, Southwest Airlines,
United Airlines, and US Airways. Although they are not signatories to the
Commitment, we also visited and tested implementation of the selected
Commitment provisions by three airlines that are not ATA members: AirTran
Airways, Frontier Airlines, and Independence Air.

During our review, US Airways merged with America West Airlines (retaining the
US Airways name). The results of our review of US Airways and America West
Airlines are combined in most cases. Also, Independence Air was dropped from
our review after it went out of business. Therefore, we are reporting the results of
our review for 15 airlines (13 ATA airlines and 2 non-ATA airlines), except where
noted. In this report we will refer to the 15 airlines under review as the airlines.


5
    Our review did not include the Commitment provision regarding on-time checked baggage delivery, which was
    subject to a hearing before the House Subcommittee on Aviation in May 2006.
6
    JetBlue Airways, which began operations in February 2000 and became an ATA member in 2001, was not a
    signatory to the June 1999 Commitment and does not consider itself bound by Commitment provisions.
                                                                                                                        3

Subsets will be noted as ATA airlines and non-ATA airlines; other airlines or the
industry in general will be called air carriers.

It should be noted that the ATA, the Regional Airline Association, the Air Carrier
Association of America, the airlines, and select airports served by these airlines
cooperated fully with us during this review.

RESULTS IN BRIEF
Overall, we found that the ATA airlines’ customer service plans are still in place
to carry out the provisions of the Commitment and that the Commitment
provisions are still incorporated in their contracts of carriage,7 as we recommended
in our prior review. This is important because unlike DOT regulations, which are
enforced by the Department and may result in administrative or civil penalties
against an air carrier, contracts of carriage are enforceable by the customer in court
actions against the air carriers. Thus, when an air carrier incorporates the
Commitment into its contract of carriage, the Commitment becomes legally
enforceable by the customer against the air carrier.

We found that the airlines need to (1) resume efforts to self-audit their customer
service plans; (2) emphasize to their customer service employees the importance
of providing timely and adequate flight information; (3) focus on the training for
personnel who assist passengers with disabilities; (4) provide straightforward,
comprehensive reporting on frequent flyer award redemptions; and (5) improve
the handling of bumped passengers.

We also found that DOT is using its additional resources to oversee and enforce
air travel consumer protection requirements with a focus on investigations and
enforcement of civil rights issues, including complaints from passengers with
disabilities. But when DOT discovers violations and assesses penalties, it almost
always forgives the penalty if the air carrier agrees to mitigate the conditions for
which the penalty was assessed. DOT’s follow-up monitoring of compliance with
these conditions was limited, and in some cases there was no follow-up
monitoring by DOT.

Airlines Need To Resume Efforts To Self-Audit Their Customer Service
Plans. In our 2001 report, we recommended that the ATA airlines establish
quality assurance and performance measurement systems and conduct internal
audits to measure compliance with the Commitment provisions and customer
service plans. Our opinion was then, as it is now, that if properly executed, the

7
    A contract of carriage is the document air carriers use to specify legal obligations to passengers. Each air carrier
    must provide a copy of its contract of carriage free of charge upon request. The contract of carriage is also available
    for public inspection at airports and ticket offices.
                                                                                    4

ATA airlines’ quality assurance and performance measurement systems should be
effective in monitoring compliance and measuring performance with the
Commitment and associated customer service plans.

In June 2001, we confirmed that 12 of the 14 ATA airlines who were signatories
to the Commitment had established and implemented their quality assurance and
performance measurement systems. During this review, however, we found that
the quality assurance and performance measurement systems are being
implemented at just 5 of the ATA airlines. The other ATA airlines had either
discontinued their systems after September 11, 2001, or combined them with
operations or financial performance reviews where the Commitment provisions
are overshadowed by operational or financial issues. We also found that the
non-ATA airlines do not have comprehensive quality assurance and performance
measurement systems or conduct internal audits to measure compliance with their
customer service plans.

Those airlines which have not already done so need to implement quality
assurance and performance measurement systems and conduct internal audits to
ensure compliance with their customer service plans.

Airlines Still Need To Emphasize the Importance of Providing Timely and
Adequate Flight Information. The ATA airlines committed to notify customers
at the airport and on board an affected aircraft in a timely manner of the best
available information regarding delays, cancellations, and diversions.

However, just as we found in our prior review, the information being provided
about delays and cancellations in boarding areas was not timely or adequate during
our tests. Based on our observations of 13 of the 15 airlines at 17 airports
nationwide (Exhibit C has a list of the airports visited), airline gate agents did not
make timely announcements (defined as approximately every 20 minutes) during
42 percent of the observations, and the information provided by the airline gate
agents was not adequate (little, if any, reason provided for the cause of the delay)
during 45 percent of the observations. For example, during a 2½-hour delay on a
flight from Dallas-Fort Worth to Philadelphia, no announcements were made
regarding the delay and no reason was provided. The airlines need to conduct
periodic observations in the gate areas during known delays and cancellations to
ensure that their customer service employees are providing timely and adequate
flight information.

On-time flight performance data should also be made readily available to
passengers at the time of booking. We recommended in our 2001 report that the
ATA airlines disclose to customers at the time of booking and without being asked
the prior month’s on-time performance rate for those flights that have been
delayed (i.e., 30 minutes or greater) or canceled 40 percent or more of the time.
                                                                                                                     5

The ATA airlines disagreed with this recommendation and as an alternative agreed
to make on-time performance data accessible to customers on the airlines’ Internet
sites, on a link to the Department’s Bureau of Transportation Statistics (BTS)
Internet site, or through toll-free telephone reservation systems.

For 2005, we identified 15,640 unique flight numbers (215,016 individual flights)
that were chronically8 delayed or canceled, affecting an estimated 16 million
passengers. However, only 5 of the 16 airlines we reviewed make on-time
performance data available on their Internet sites. While on-time performance
data are available on the BTS Internet site, they are difficult to find. Given the
ease of availability of this information to the airlines, we continue to recommend
that the airlines post on-time flight performance information on their Internet sites
and make it available through their telephone reservation systems and without
prompting. The Department should revisit its current position on chronic delays
and cancellations and take enforcement actions against air carriers that
consistently advertise flight schedules that are unrealistic, regardless of the reason.

Airlines’ Need To Focus on Promptly Training Personnel Who Assist
Passengers With Disabilities. The ATA airlines committed to disclose their
policies and procedures for assisting special-needs passengers, such as
unaccompanied minors, and for accommodating the disabled in an appropriate
manner. Federal requirements for accommodating persons with disabilities have
been in existence since the Air Carrier Access Act was enacted in 1986 and its
implementing rules were promulgated in Part 382 of Title 14 of the Code of
Federal Regulations, “Nondiscrimination on the Basis of Disability in Air Travel,”
in 1990. Part 382 prohibits discrimination against passengers with disabilities by
air carriers providing air transportation services.

In our prior review, the airlines performed well with respect to this provision.
However, in our current review, we found that 12 of the 15 airlines and their
contractor personnel who interact with passengers with disabilities were not
complying with the training requirements of Part 382 or with their own policies.
For example, we reviewed training records for 1,073 airline employees and found
that 166 employees (15 percent) were either not trained, not promptly trained
(within 60 days of being hired), did not have records to support completion of
training, or were not current with annual refresher training.

These deficiencies resulted from the airlines’ lack of oversight of compliance with
the requirements of Part 382 and their own policies. Although 14 of the
15 airlines use contractors to assist passengers with disabilities, their oversight of
contractor compliance with Part 382 varies from no oversight, to informal

8
    We define chronically delayed flights as those flights canceled or delayed 30 minutes or more at least 40 percent of
    the time during a single month.
                                                                                    6

observations and reviews, to reliance on customer service complaints, to having
established performance tracking systems.

The airlines need to focus their efforts on monitoring both their own compliance
and their contractors’ compliance with Part 382 and ensure that all personnel who
interact with passengers with disabilities receive the required training promptly.

Straightforward, Comprehensive Reporting Is Needed on Frequent Flyer
Award Redemptions. The ATA airlines committed to disclose to the customer
rules, restrictions, and an annual report on frequent flyer program redemptions.
Just as in our prior review, we found that the information provided on frequent
flyer mileage redemptions has marginal value to the consumer for purposes of
determining which frequent flyer program best meets their needs.

Specifically, the airlines’ information on redemptions is difficult to find; in some
cases the information was in an airline’s annual report or on the airline’s Internet
site but without a clear indication of where to find the information. For example,
10 airlines report redemption information in their annual submissions to the
Securities and Exchange Commission (10K report), but only 3 report this
disclosure on their Internet sites. We found that the redemption information in the
airlines’ 10K reports was not easy to find, and the locations of that information on
the Internet are not readily apparent.

Also, information disclosed on frequent flyer redemptions is not comparable
across airlines. For example, for 11 of the 15 airlines that report redemptions,
8 report annual redemptions as a percentage of total revenue passenger miles,
2 report redemptions as a percentage of passengers boarded, and the remaining
airline reports only the total number of redemptions. This inconsistency in
reporting makes it difficult, if not impossible, for consumers to compare frequent
flyer programs in a meaningful way.

The current market of reduced seat capacity along with deeply discounted fares
translates into higher load factors and fewer seats available for redeeming frequent
flyer awards. So it was not surprising to find that a common and growing cause of
frequent flyer complaints is the inability to book tickets using the standard level of
award. Generally, airlines have two levels of awards: a standard award (restricted)
requiring the least number of points for a ticket and a premium award
(unrestricted) requiring up to twice the number of points for a ticket. Based on a
sample of 598 frequent flyer complaints received by 10 of the 15 airlines between
January and December 2005, we found that 137 complaints (23 percent) were
attributed to the customer’s inability to obtain a standard award.

Given the need for straightforward, comprehensive reporting on frequent flyer
award redemptions, the Department should use rulemaking proceedings to
                                                                                  7

examine the need to standardize the reporting of airline data on frequent flyer
redemptions so that customers can make a more meaningful comparison of the
benefits of each airline’s frequent flyer program. This information should include
the ratio of seats flown by passengers traveling on frequent flyer rewards to
overall seats available and the total number and percentage of redemptions at both
standard and premium levels.

Improvements Are Needed in Handling Bumped Passengers. The ATA
airlines committed to handle bumped passengers with fairness and consistency.
This implies that for every flight oversold, passengers denied boarding will be
treated fairly and consistently when compensation is offered.

In the air carrier industry, many customers make reservations and then fail to
travel without notifying the air carrier. Consequently, air carriers overbook their
scheduled flights, which mean they take more reservations for a flight than there
are seats. When more confirmed passengers than expected actually show up for a
flight, it is “oversold,” and, by Federal regulation, the air carrier must seek out
passengers who are willing to give up their seats for compensation before denying
boarding to anyone.

In our prior review, we found two ATA airlines that inconsistently compensated
passengers who volunteered to relinquish their seats. In this review, while it was
not a systemic problem, we found nine airlines were not adhering to their own
policies for compensating passengers who voluntarily gave up their seats. In
addition, two airlines are not fully disclosing their boarding priority rules. These
are similar to conditions we found in our prior review.

The airlines need to conduct periodic reviews of oversales documentation to
ensure that their customer service employees are following their respective
airline’s policy to compensate equally all volunteers on the same flight who give
up their seats. Airlines also need to fully disclose their boarding priority rules.

The Department Needs To Improve Its Oversight of Air Traveler Consumer
Protection Requirements. The Department’s Office of Aviation Enforcement
and Proceedings (OAEP) is the division within the Office of the General Counsel
that enforces the Department’s air travel consumer protection rules. These rules
encompass many areas, including unfair and deceptive practices and unfair
methods of competition by air carriers and travel agents, such as deceptive
advertising. When violations occur, OAEP pursues enforcement action, which
may range from warning letters to litigation in U.S. District Courts.

We found that OAEP enforces air travel consumer protection rules, but its
monitoring of compliance has been sporadic. Since 1996, the first year for which
                                                                                                                        8

electronic dockets exist, OAEP has negotiated 233 consent orders9 with air carriers
and other providers of air services, with penalties totaling $21.8 million. Many
contain provisions that allow a portion of the penalty to be forgiven if the violator
complies with certain conditions or offsets if the violator improves service to
consumers above and beyond what is required by existing rules or its contract of
carriage.

We analyzed 121 of the consent orders, with penalties totaling nearly $15 million,
and found that OAEP collected, after offsets, about $2 million. However, we
found the OAEP’s compliance monitoring was limited and in some cases
non-existent even when the penalties were forgiven.             For example, a
$90,000 penalty was forgiven for one consent order 1 year after the order was
negotiated (August 2003), although there was no indication that the airline had
fully complied with the offsetting provisions. Although the penalty was forgiven
in August 2004, no monitoring occurred between January 2004 and February
2006, when OAEP asked the airline, via e-mail, whether the conditions had been
met. Although the airline responded with an e-mail stating that it had met the
conditions, OAEP did not verify this assertion. Without continued monitoring,
OAEP has no assurance that violators have fully met the conditions of the orders.

The Department needs to develop mechanisms to strengthen enforcement
monitoring, despite budgetary constraints. Between 2003 and 2005, funding for
compliance and enforcement travel declined from $51,000 to $3,500, virtually
eliminating on-site visits. In the absence of physical verification of compliance,
OAEP must rely on self-certification by the air carriers and other providers of air
services. Certifications may be appropriate in some cases, but they should not
supplant physical verification, especially in cases resulting from severe consumer
harm (e.g., a pattern of civil rights violations). To the extent possible, the
Department should make enforcement a priority and direct sufficient resources for
staff to conduct on-site compliance verification.

OAEP has operated a toll-free hotline for airline passengers with disabilities to
resolve time-sensitive disability-related disputes.10 Since the toll-free hotline
started operations in August 2002, the contractor-operated hotline has received
about 17 calls per week at an average cost per call of about $1,200.11 Since
October 1, 2006, the Department has operated the hotline in-house, a move that
OAEP estimates will save approximately $400,000 in budgeted fiscal year

9
     In DOT aviation economic enforcement proceedings, a consent order reflects a settlement between OAEP and an
     entity that has violated DOT aviation economic requirements. It is signed by the Deputy General Counsel or, if a
     hearing has been instituted, by an administrative law judge. Typically such an order includes a finding of violations,
     a cease-and-desist provision, and an assessment of civil penalties.
10
     The Conference Report accompanying the 2002 Appropriations Act required DOT to establish a toll-free hotline to
     be staffed from 7:00 a.m. to 11:00 p.m., 7 days a week.
11
     Through September 2006.
                                                                                   9

(FY) 2007 funds and bring the cost per call down to less than $25. Bringing the
hotline operations in-house frees up funds that can potentially be used to support
OAEP’s oversight and enforcement of air carriers’ compliance with air traveler
consumer protection rules.

Additionally, OAEP’s increased responsibilities—especially as they relate to civil
rights violations—have diverted resources away from OAEP’s other consumer
protection activities such as investigating the availability of seats at advertised
fares and consumers’ ability to redeem frequent flyer awards. Since 1996, OAEP
has taken action in only two instances of insufficient capacity at the lowest
advertised fare. While civil rights violations clearly have an impact on the
traveling public, OAEP cannot forget its other responsibilities related to protecting
consumers from economic harm.

Recommendations. We are making a series of recommendations to the
Department to strengthen its oversight and enforcement of air traveler consumer
protection rules. These recommendations begin on page 38. One such
recommendation is that DOT develop strategies to more effectively monitor air
carrier compliance with Federal requirements governing air travel consumer
protection rules and to verify air carrier compliance with the terms and conditions
of consent orders.
                                                                                                                                                                                                                                     10



BACKGROUND: SINCE 2001, THERE HAS BEEN A PROFOUND
CHANGE IN THE AIR CARRIER INDUSTRY
During the past 5 years, the air carrier industry has faced a series of major
challenges, including a weakened economy; the terrorist attacks of September 11,
2001; the Severe Acute Respiratory Syndrome epidemic; the war in Iraq; soaring
fuel prices; and continued terrorist threats against air carriers. After September 11,
2001, Congress provided a total of $5 billion in compensation to air carriers for
direct losses as a result of the 4-day shutdown of the air traffic control system and
for incremental losses incurred between September 11, 2001, and December 31,
2001, as a direct result of the terrorists’ attacks. However, the air carriers have
still experienced record financial losses in the past 5 years.

The air carriers have made unprecedented changes to their operations to regain
profitability. Several air carriers have gone into bankruptcy and others have
liquidated. The remaining air carriers have struggled to keep afloat as demand has
softened, primarily in the high-fare business travel market. Between the first
quarter of 2001 and the fourth quarter of 2005, the network air carriers12 generated
$58 billion in net losses. As Figure 1 illustrates, the events of the last 5 years have
had a significant impact on the decline and recovery of air service.

      Figure 1. Percentage Change in Scheduled Domestic Flights
           January 2001 through June 2006 (Base Year 2000)
                     7%

                                                                                                                                Scheduled flights in July 2005 =
                                                                        Iraq War and SARS                                       scheduled flights in July 2000
                     2%




                     -3%
           Percent




                     -8%                                                                                                                                   United, US Airways, Delta,
                                                                                                                                                           and Northwest all in
                                                                                                                                                           bankruptcy

              -13%                                                                                                                                Fuel up 185% from 2000: $2.05/gallon

                                                                           Scheduled flights reach lowest
                                                                           point at -15% after 9/11
              -18%
                                    Apr-01




                                                                          Apr-02




                                                                                                              Apr-03




                                                                                                                                                  Apr-04




                                                                                                                                                                                        Apr-05




                                                                                                                                                                                                                            Apr-06
                                                      Oct-01




                                                                                            Oct-02




                                                                                                                                Oct-03




                                                                                                                                                                      Oct-04
                           Jan-01



                                             Jul-01



                                                               Jan-02



                                                                                   Jul-02



                                                                                                     Jan-03



                                                                                                                       Jul-03



                                                                                                                                         Jan-04



                                                                                                                                                             Jul-04



                                                                                                                                                                               Jan-05



                                                                                                                                                                                                 Jul-05

                                                                                                                                                                                                          Oct-05

                                                                                                                                                                                                                   Jan-06




12
     Network carriers are those air carriers that operate in a hub-and-spoke system.
                                                                               11

Nevertheless, two network carriers have emerged from bankruptcy and many of
the airlines have improved their financial condition by taking advantage of strong
passenger demand competing for fewer available seats, which has enabled them to
increase fares. Nine of the 16 air carriers posted profits in the first quarter of
2006.

The following statistics and analysis compare the most recent air carrier
environment to the environment in 2000.

Traffic and Capacity
 • The number of scheduled flights declined from 8 million in 2000 to
   7.8 million in 2005, a drop of 2.5 percent. Scheduled seats declined
   7 percent between 2000 and 2005, from 876 million to 815 million.

 • In the first 6 months of 2006, the six largest network carriers combined
   scheduled 10 percent fewer flights and 17 percent fewer seats than in the first
   6 months of 2000. US Airways and Delta eliminated the most capacity; both
   reduced scheduled seats by 27 percent.

 • Even as the number of flights and scheduled seats declined, enplanements
   were up 3 percent from 665 million passengers in 2000 to 685 million
   passengers in 2005.

 • Reduced capacity and increased demand means fuller flights. For the first
   quarter of 2006, load factors averaged 77 percent for the six largest ATA
   airlines, compared to 68 percent average load factors for the same period in
   2000.

 • Reduced capacity and higher load factors could also mean increased
   passenger inconvenience and dissatisfaction with customer service. With
   more seats filled, air carriers will have fewer options to accommodate
   passengers from canceled flights.

Delays and Cancellations
 • The number of delayed or canceled flights has declined from 2.5 million in
   2000 to 2.2 million flights in 2005, a decrease of 12 percent.

 • The percentage of delayed or canceled flights has also declined from
   27.1 percent in 2000 to 22.7 percent in 2005.

 • The average flight delay length is about the same. In 2000, the average delay
   length was 51 minutes; in 2005, it was 53 minutes.
                                                                                                                 12

     • While flight delays have declined nationwide since 2000—, there are some
       individual airports that experienced significant reductions in service and a
       subsequent reduction in delays. However, traffic and delays continued to
       increase at other airports.

         For example, from January through May 2006 at George Bush
         Intercontinental/Houston Airport, flight arrivals increased by 30 percent and
         delays increased by 56 percent when compared to the same period in 2000.
         This increase is important to note because Houston added a new runway in
         2003 at a cost of $267 million that was suppose to alleviate delays. The
         growth at Houston resulted from Continental Airline’s increased use of
         regional jets, which account for 52 percent of Continental’s service out of
         Houston.

Workforce Reductions
     • Between 2000 and 2005, the size of the workforce at the six largest network
       airlines decreased by 27 percent.13 The largest reduction was at United
       Airlines, where the workforce decreased by 41 percent.

Complaints
                                                          Figure 2. Air Travel Consumer
     • Consumer complaints                                      Complaints, 2005
                                                              Flight
       followed traffic levels                              Proble m s
       and are starting to                                     26%
                                                                            Ove rs ale s
       increase     as   traffic                                                4%
       returns from its low in                                                  Dis ability
       2003. As we found in                                                         6%

       2000 and in every year
                                                                                   Othe r
       since,     the   largest         Baggage
                                           23%                                      9%
       complaint category is
       flight problems, which
                                                                             Re funds
       includes         delays,                                                 10%
       cancellations,       and Re   s e rvations ,
                                  Tick e ting, and Boarding            Cus tom e r Se rvice
       misconnections.        In 11%                                   11%

       2000, flight problems Source: DOT’s Air Travel Consumer Reports for 2005
       accounted for nearly 40 percent of the complaints. As depicted in Figure 2,
       flight problems accounted for more than one-quarter of all complaints the
       Department received in 2005.

•        The next largest category of complaints was mishandled baggage. In May
         2006, Chairman Mica of the House Subcommittee on Aviation held a hearing

13
     The US Airways employee count does not include America West in 2000 because the two ATA airlines had not then
     merged. They are combined in the 2005 data despite maintaining separate operations for most of the calendar year.
                                                                                                              13

        on the growing problem of airline passenger baggage that is delayed,
        damaged, lost, or stolen. In 2005, there were 6.04 mishandled baggage
        reports per 1,000 passengers, which exceeds the 2000 rate of 5.29 reports per
        1,000 passengers. For several months in 2005, mishandled baggage was the
        number one complaint as reported by DOT. For the first 6 months of 2006,
        there were 5.86 mishandled baggage reports per 1,000 passengers, which is
        down from the rate of 6.20 mishandled baggage reports per 1,000 passengers
        for the same period in 2005.

        However, the rate of mishandled baggage reports per 1,000 passengers has
        increased beginning in August 200614 as the number of checked bags has
        increased, and will likely continue because of the Transportation Security
        Administration’s restrictions on liquids, gels, and lotions in carry-on
        baggage. This is a precautionary measure following the overseas arrests of a
        number of extremists plotting to destroy multiple passenger aircraft flying
        from the United Kingdom to the United States.

FINDINGS

Airlines Still Need To Emphasize the Importance of Providing Timely
and Adequate Flight Information and Establish Targets for Reducing
Delays
The ATA airlines committed to notify customers at the airport or on-board an
affected aircraft of the best available information regarding known delays,
cancellations, and diversions in a timely manner.

Since our 2001 report, the airlines have invested in a variety of technology
upgrades to their information and communication systems that automatically
notify air travelers at home, at work, or elsewhere regarding the status of their
flight, including information about delays or cancellations. Travelers can establish
a notification profile on the airlines’ Internet sites and provide contact points
(e.g., home phone, work phone, cell phone, or personal digital assistant) for the
airlines to use in notifying them in case of a problem with their flight. All the
airlines we reviewed make up-to-date information available about their flights’
status via their Internet sites or toll-free telephone reservation systems.

However, we still find that the information about delays and cancellations
provided by the airline agents in the boarding areas and on-time flight


14
     In August 2006, there were 8.08 mishandled baggage reports per 1,000 passengers, which exceeds the July 2006
     rate (6.50 reports per 1,000 passengers) by 24 percent. In September 2006, there were 8.25 mishandled baggage
     reports per 1,000 passengers.
                                                                                                                      14

performance information provided by agents in the airlines’ telephone reservation
systems is not always accurate, timely, or adequate.

Also, the number of delayed and canceled flights has been manageable since 2001
but is on the rise at certain hub airports. DOT and airlines should continue to look
for ways to reduce the level of occurrence of both delays and cancellations. DOT
recently announced it would focus significant attention and resources to cut traffic
jams, relieve freight bottlenecks, and reduce flight delays. This attention is
necessary because airlines have not set targets to reduce delays and cancellations
as they promised in June 2001 congressional testimony,15 and consumers lose
$9.4 billion a year from airline delays alone.

Information Provided at the Boarding Gates About Delays and
Cancellations Was Frequently Untimely or Inadequate
While improvements to electronic information display systems have been made to
keep passengers informed, we found that verbal information being provided about
known delays and cancellations in the boarding areas was frequently untimely and
inadequate. During our observations at 17 airports nationwide for this review, we
found that airports and airlines are providing timely electronic information to
customers about flight delays on the Flight Information Display Systems monitors
located throughout the airports and on the Gate Information Display Systems
monitors located in the boarding areas.16 Several airlines have invested in a new
Gate Information Display System that provides information about the flight
assigned to the gate, including flight time, departure time, and onboard services
offered. The system is equipped to list the specific reason a flight is delayed,
when necessary.

However, the airlines’ policies call for their customer service gate agents to make
timely verbal announcements about delays and cancellations (defined as generally
every 20 minutes). Based on 120 observations at 17 airports, 50 times the airlines’
gate agents did not make timely announcements and 54 times the information
provided by the agents was not adequate. The flights we observed were delayed at
least 20 minutes.17




15
     ATA’s testimony before the House Transportation and Infrastructure Committee, June 20, 2001.
16
     In February 2006, DOT issued a notice of proposed rulemaking proposing to adopt a performance standard requiring
     air carriers to promptly provide the same information to deaf, hard of hearing, and deaf-blind individuals in airport
     terminals that they provide to other members of the public.
17
     Airlines that account for at least 1 percent of total domestic scheduled passenger revenues submit monthly reports to
     BTS, which are used, among other things, to determine the percentage of flights departing and arriving on time by
     airport. The Department counts a flight as on time if it arrived (its aircraft parking brake set) within 15 minutes of
     the scheduled gate arrival time.
                                                                                                                15

For example:

       • During a 1½-hour delay on a flight from Atlanta to Houston, one
         announcement was made regarding the delay and no reason was provided.
         Two agents were assigned to the gate and were simultaneously working
         other flights. During the observation, this flight’s information disappeared
         from the gate information display monitor. The flight had been canceled,
         but this was not announced until passengers began questioning the agent
         (who was busy with the boarding process of another flight) about why the
         Houston flight had disappeared from the display.

       • During a 2½-hour delay on a flight from Dallas-Fort Worth to Philadelphia,
         no announcements were made at the boarding gate regarding the delay, and
         only the airport’s flight information display monitor showed the flight as
         being delayed. Not until we inquired did we find out that weather was the
         cause of the delay.

While the number of tests was limited, we found a wide disparity among the
airlines in the timeliness and adequacy of flight delay and cancellation
announcements, ranging from total failure to complete success. We gave the
airlines the results of our observations so they could take the necessary action to
comply with the Commitment provision and their customer service plans.

Based on our observations, the airlines need to conduct periodic observations in
the gate areas during known delays and cancellations to ensure that their customer
service employees are providing timely and adequate flight information. Periodic
observations could be included as part of the airlines’ self-audits of their customer
service plans.

On-Time Flight Performance Data Needs To Be Made Readily Available
In our last report, we recommended that the ATA airlines disclose to customers at
the time of booking and without being asked the prior month’s on-time
performance rate for those flights that have been delayed (i.e., for 30 minutes or
greater) or canceled 40 percent or more of the time. The ATA airlines disagreed
with this recommendation and as an alternative agreed to make on-time
performance data accessible to customers on the airlines’ Internet sites, on a link
to the Department’s BTS Internet site, or through toll-free telephone reservation
systems.

Only 5 of the 16 airlines18 we reviewed make on-time performance data available
on their Internet sites. While on-time performance data are available on the BTS

18
     During our tests, America West Airlines and US Airways had not combined their reservation system operations, so
     the results from the two are not combined.
                                                                                                                    16

Internet site, it is difficult to find. The home page does not clearly indicate where
to find the data and a user would have to use the link called “searchable data and
statistics” to actually get the on-time flight performance information.

Federal regulation requires air carriers to provide on-time performance data upon
request when customers call the airlines’ telephone reservation systems.19
However, the information being provided by the agents in the airlines’ telephone
reservation systems about on-time flight performance is not always accurate or
adequate. For example, we placed 160 calls (10 calls to 16 airlines’ telephone
reservation systems) requesting on-time performance for specific flights and were
successful only 59 percent of the time in getting the data for the preceding month.
For 29 percent of the calls, we were told that the information was not available.
For the remainder of the calls, agents either guessed what they thought the on-time
performance was or gave the data for only the previous day. In addition, the wait
time to speak to an agent was more than 10 minutes for 8 percent of the calls, with
one call’s wait exceeding 50 minutes.

We note that two of the three largest independent online travel agencies provide
on-time percentages for flights that are being booked, even for airlines that do not
report that information on their own Internet sites. Given the ease of availability
of this information to the airlines, we continue to recommend that the airlines post
on-time flight performance information on their Internet sites and make it
available through their telephone reservation systems and to do so without
prompting. BTS should also establish a direct link on its home page to on-time
performance statistics by flight number.

The Department Should Continue To Implement Actions To Curb
Congestion and Delays Because Airlines Have Not Set Targets To Reduce
Delays and Cancellations as They Promised
In its June 2001 testimony, the ATA, on behalf of member airlines, stated that
specific targets would be established for reducing chronically delayed or canceled
flights.20 However, this statement was followed closely by the events of
September 11th. With the reduction of service that followed, delays and
cancellations dropped markedly and the airlines never established targets for
reducing chronically delayed or canceled flights.

During our current review, we found that the 15 airlines, in collaboration with
FAA, are managing delays and cancellations on a day-to-day basis but have not
19
     Air carriers with less than 1 percent of total domestic scheduled passenger revenues are not required by Federal
     regulation to submit monthly reports to BTS and are therefore exempt from Federal regulations governing the
     reporting of on-time performance information, unless they choose to do so voluntarily. Midwest Express is exempt
     but has a policy to do so under its customer service plan.
20
     We define chronically delayed flights as those flights canceled or delayed 30 minutes or more at least 40 percent of
     the time during a single month.
                                                                                 17

established targets for reducing the number of chronically delayed or canceled
flights. However, now that traffic has returned to pre-September 11th levels,
flight delays and cancellations are starting to rise. While overall there were still
fewer delays in 2005 and 2006 as compared to 2000, there are certain airports
where delays exceeded 2000 levels. For example:

   • Houston’s George Bush Intercontinental Airport’s traffic from January
     through May 2006 increased 30 percent over 2000 levels for the same
     5 months, and delays increased 56 percent. During this period in 2000, the
     delay rate was 19 percent; in the same 5 months of 2006, it was 23 percent.

   • Memphis Airport also has growing delay problems. Although traffic
     increased by only 12 percent over the level of January through May 2000,
     delays increased by 59 percent for the same 5 months in 2006. In 2000, the
     delay rate was 17 percent; in the same 5 months of 2006, it was 24 percent.

As delays and cancellations return, FAA and some airports are considering a
variety of administrative and market-based solutions that would allow variable
pricing of access to control congestion and delays. For example, in 2004 and
2005, FAA used administrative actions to reduce delays at Chicago O’Hare
International Airport by first negotiating with and later imposing schedule
reductions on the air carriers serving O’Hare. In August 2006, FAA extended the
administrative controls at O’Hare through October 2008, when the first phase of
O’Hare’s expansion and modernization program is scheduled to be complete and
additional capacity will relieve some of the congestion.

At New York’s LaGuardia Airport, another airport where scheduled operations are
anticipated to exceed capacity when administrative actions expire in 2007, new
construction is not a viable option. Some demand-management tool, whether
market-based or administrative, will likely be needed to prevent what could be
crippling delay conditions. In fact, in August 2006, FAA issued its long-awaited
proposed rule on demand management at LaGuardia.

Demand management approaches involve significant policy considerations, such
as the market impact of limiting flights at certain times of the day, how general
aviation is treated, and how access to small communities will be ensured. These
critical issues require serious consideration before any demand management
technique is imposed given the severe market consequences a poorly designed
technique could cause.

Another option to curbing congestions is for OAEP to investigate unrealistic
scheduling of flights by any air carrier. In 1984, the Office of the Secretary
adopted a Civil Aeronautics Board policy that determined “…unrealistic
scheduling of flights by any air carrier…to be an unfair or deceptive practice and
                                                                                  18

an unfair method of competition….” OAEP has also acknowledged that the law
“…prohibits unfair and deceptive practices, and regular flight delays and
cancellations…are clearly examples of such prohibited practices.” These flights
are referred to as “chronically delayed.” For 2005, we identified 15,640 unique
flight numbers (215,016 individual flights) that were chronically delayed or
canceled, affecting an estimated 16 million passengers.

OAEP’s current position is that the flights that are chronically delayed are mostly
due to reasons beyond the air carriers’ control: mostly weather but also
congestion. As a result, in OAEP’s view, a successful enforcement action for
unrealistic scheduling would be difficult at best. We believe OAEP should revisit
the legislative and policy precedents that address unrealistic scheduling. If OAEP
does believe, as it has stated, that unrealistic scheduling is “clearly” an example of
unfair and deceptive practices, then it should pursue enforcement action against
carriers that consistently advertise flight schedules that they cannot meet,
regardless of the causes of the delay.

Improvements Are Needed in Handling Bumped Passengers
In our review of the 15 airlines’ policies and procedures for handling bumped
passengers, we found 9 airlines were not adhering to their own policies for
compensating passengers who voluntarily give up their seats, and 2 airlines were
not properly disclosing their boarding priority rules. We also found compensation
amounts that have not changed since 1978. These are similar to conditions we
found in our prior review.

The Majority of Airlines Were Not Adhering to Compensation Policies for
Passengers Who Voluntarily Give Up Their Seats
The ATA airlines committed to handle bumped passengers with fairness and
consistency. This implies that for every flight oversold, passengers denied
boarding will be treated fairly and consistently when compensation is offered.
Nine of the 13 ATA airlines and the 2 non-ATA airlines have policies that all
volunteers on the same flight who give up their seats will be compensated equally.

Many customers make reservations and subsequently fail to travel, without
notifying the air carrier. Consequently, air carriers overbook their scheduled
flights, which means they take more reservations than there are seats. When more
confirmed passengers than expected actually show up for a flight, it is oversold,
and, by Federal regulation, the air carrier must seek out passengers who are
willing to give up their seats for compensation before bumping anyone
involuntarily. Only if there are not enough volunteers can the air carrier bump
passengers from the flight. Bumped passengers are entitled to compensation,
except when the passenger has not met air carrier check-in rules or the air carrier
                                                                                                                  19

arranges for the passenger to get to his or her destination within 1 hour of the
passenger’s original flight.

In our prior review, all but two airlines were providing equal amounts of
compensation to passengers who volunteered to relinquish their seats. During this
review, we identified 35 flights from 9 airlines where unequal compensation was
given to passengers who volunteered to relinquish their seats.21 For example, on
14 of 132 sampled oversold flights for 1 airline, passengers who voluntarily
relinquished their seats received different compensation. On one of those flights,
four volunteers each received a $400 travel voucher while five other volunteers
each received a $200 travel voucher.

While we did not find this to be a systemic problem, the airlines need to conduct
periodic reviews of oversales documentation as part of their self-audits of their
customer service plans. This will ensure that the airlines’ customer service
employees are following their respective airline policy to compensate equally all
volunteers on the same flight who give up their seats.

Two Airlines Are Not Fully Disclosing Their Boarding Priority Rules
According to Part 250 of Title 14 of the Code of Federal Regulations, “Oversales,”
every air carrier will establish priority rules and criteria that will apply when
passengers are involuntarily bumped from an oversold flights. These criteria take
effect only after the air carriers have requested volunteers to relinquish their seats.
Part 250 also requires the air carrier to give all passengers who are involuntarily
denied boarding a written statement explaining the terms, conditions, and
limitations of denied boarding compensation and describing the air carrier’s
boarding priority rules and criteria.

Boarding priority rules for 9 of the 15 airlines we reviewed are based on reverse
order of check-in (i.e., last to check in is first to be bumped). The other 6 airlines
have boarding priority criteria for bumping passengers based on fare paid or
frequent flyer status. However, of the six airlines, two either did not disclose this
information to passengers in their denied-boarding literature, as is legally required,
or the information in the denied-boarding literature was not their stated policy or
practice. We provided this information to officials in OAEP to determine whether
enforcement actions are warranted. OAEP informed us that it will fully
investigate this matter and take enforcement action, if appropriate.




21
     We sampled 1,404 flights out of a universe of 31,439 from 15 airlines on which passengers voluntarily relinquished
     their seats on oversold flight for the months of December 2004 and June 2005.
                                                                                 20

Compensation to Involuntarily Denied Passengers Has Not Been Raised
Since 1978
Under Part 250, if a passenger is involuntarily bumped and delayed less than an
hour, the passenger is not entitled to any compensation. If the passenger is
delayed between 1 and 2 hours, the passenger can receive 100 percent of the cost
of the remaining ticket to the destination but not more than $200. If the delay is
more than 2 hours, the passenger can receive 200 percent of the cost of the
remaining ticket but not more than $400. This limit has not been changed since
1978. In each case, the air carrier arranges to get the passenger to his or her
destination.

Also, instead of cash, the air carrier can offer the passenger free or reduced air
transportation of equal or greater value than the amount of the cash compensation.
The carrier must also inform the passenger of the amount of cash compensation
that would otherwise be due and that the passenger may decline the transportation
benefit and receive the cash payment.

In our prior review, we recommended the airlines petition DOT to increase the
monetary compensation payable to involuntarily bumped passengers. On April 3,
2001, ATA petitioned DOT for a rulemaking to increase the involuntarily denied
boarding compensation. ATA also proposed to broaden the applicability of denied
boarding compensation. Currently, aircraft with 60 seats or fewer are exempt
from denied boarding compensation requirement. ATA proposed broadening this
requirement to include aircraft with more than 30 seats. After September 11,
2001, however, the priorities changed and nothing came of this.

The DOT General Counsel’s office has stated it intends to review the
compensation amounts in the next few months and decide whether or how to
proceed. The Department needs to take action on this petition to determine
whether the maximum compensation amount needs increasing.

Given the significant growth of regional aircraft, the Department should also
consider broadening the applicability of denied boarding compensation by
changing the exemption for small aircraft to aircraft with 30 seats or fewer. The
number of operations with aircraft of 31 to 60 seats has increased from 2.4 million
flights to 3.4 million flights over the past 4 years. Altering the 60-seat exemption
to a 30-seat exemption would affect approximately 26 carriers which, in 2005, had
the seating capacity to transport over 160 million passengers on regional jets with
31 to 60 seats.
                                                                                  21

Straightforward, Comprehensive Reporting Is Needed on Frequent
Flyer Award Redemptions
The ATA airlines each committed to disclose to the customer rules, restrictions
and an annual report on frequent flyer program redemptions. Frequent flyer
programs have existed for at least 25 years. In addition to earning awards by
flying, passengers can earn awards for free travel with purchases from dozens of
participating companies, such as rental car agencies and hotel chains. Historically,
the disclosure of frequent flyer rules and restrictions was part of each airline’s
operating policy. The Commitment provision to publish an annual report on
frequent flyer program redemptions was new, but it was not specific about the
amount or type of redemption information airlines should report.

As in our prior review, we found that the information disclosed by the airlines on
frequent flyer redemptions still is of marginal value to the consumer. Redemption
information is often difficult to find and not comparable across airlines because it
is reported in a variety of ways. As a result, it is difficult, if not impossible, for
consumers to compare frequent flyer programs in a meaningful way.

Today’s reduced seat capacity along with deeply discounted fares translates into
higher load factors and fewer seats available for the redemption of frequent flyer
awards. At the same time, the airlines offer many more ways to earn points, such
as credit card purchases, that have significantly increased the number of points
available for redemption. The convergence of reduced seat capacity and increased
number of points available for redemption causes award programs to lose value
and makes it even more important for the consumer to have readily available and
comprehensive information about frequent flyer redemptions. The data on
frequent flyer redemptions should be standardized so customers can make a more
meaningful comparison of the benefits of each airline’s frequent flyer program.

Frequent Flyer Information Is Not Easily Found or Consistently Reported
The ATA airlines committed to disclose to the customer an annual report on
frequent flyer redemptions, but the Commitment provision was not specific about
where the information should be published. Because no clear method was
provided for where the redemption information should be disclosed, the customer
for the most part cannot easily locate the data, and airlines do not always tell
customers where they can find the information.

In this review, we found:

   • Two ATA airlines and two non-ATA airlines do not report redemption
     information to the public. The two ATA airlines report this information on
     Internet sites only available to members of their frequent flyer programs.
                                                                                                             22

       • The remaining 11 ATA airlines report redemption information to the
         public, but it is not readily available.

                − Three airlines report redemption information in both their annual
                  submissions to the Securities and Exchange Commission (10K
                  report) and on their Internet sites;

                − Seven airlines only report redemption information in their
                  10K reports; and

                − One airline reports redemption information only on its Internet site.

       • Redemption information in the airlines’ 10K reports was not easy to find,
         and the locations on the Internet were not readily apparent. For example,
         two airlines report the data under their customer service plans, a third
         embeds the data deep in its program literature, and the fourth reports its
         data under a link to its Frequent Flyer Terms and Conditions page.

Even if passengers find the data, information disclosed on frequent flyer
redemptions is not comparable. Airlines report frequent flyer redemptions in a
variety of ways that makes it difficult, if not impossible, for consumers to compare
frequent flyer programs in a meaningful way.

As shown in Table 2, the time period reported by 11 of the 15 airlines that do
provide data on redemptions varies: three airlines report redemptions for 1 year
only; two airlines report redemptions for 2 years; and the remaining six airlines
report redemptions for 3 years. Moreover, the 11 airlines use different criteria to
report redemptions. Eight airlines report redemptions as a percentage of revenue
passenger miles,22 two airlines report redemptions as a percentage of revenue
passenger enplanements,23 and the remaining airline reports only the total number
of redemptions.




22
     A revenue passenger mile represents one fare-paying passenger transported 1 mile, the most common measure of
     demand for air travel.
23
     A revenue passenger enplanement represents one fare-paying passenger—originating or connecting—boarding an
     aircraft with a unique flight coupon.
                                                                                 23


   Table 2. Frequent Flyer Information Reported by 11 Airlines
   Airline       Redemption       Redemptions       Redemptions         No. of
                  Activity        Reported as a     Reported as a     Consecutive
                  Reported        Percentage of     Percentage of       Years
                                    Revenue          Passenger         Reported
                                 Passenger Miles    Enplanements
Alaska                  Yes            Yes               No                 3
ATA                     Yes            No                No                 1
American                Yes            No               Yes                 2
Continental             Yes            Yes               No                 1
Delta                   Yes            Yes               No                 3
JetBlue                 Yes            Yes               No                 1
Midwest                 Yes            Yes               No                 2
Northwest               Yes            Yes               No                 3
Southwest               Yes            No               Yes                 3
United                  Yes            Yes               No                 3
US Airways              Yes            Yes               No                 3

Frequent Flyer Points Lose Value as Availability of Seats Declines and
More Points Flood the Market
While it is nearly impossible to obtain comparable data across the airlines to
determine the relative value of the award points earned in each airline’s frequent
flyer program, there are basic conditions and calculations that indicate that value
of frequent flyer points is dropping.

Seat Capacity and Frequent Flyer Redemptions for Free Tickets Have Been
on the Decline. The combination of six airlines with the largest frequent flyer
programs have on average reduced capacity by about 11 percent in 2005 as
compared to 2000 (see Table 3). This, along with deeply discounted fares, has
raised load factors, resulting in fewer seats available for redeeming frequent flyer
awards.

                       Table 3. Change in Available Seats
                             Between 2000 and 2005
              Airline         Seats, 2000    Seats, 2005  Change
              American        126,168,624    128,715,885     2%
              Continental       68,368,851    65,256,219    -5%
              Delta           175,161,550     156,497,538  -11%
              Northwest         86,302,504    84,873,060    -2%
              United          135,970,429    106,095,667   -22%
              US Airways      156,764,929     123,208,796  -21%

               Total          748,736,887    664,647,165      -11%
                                                                                 24

As shown in Table 4, frequent flyer activity for the same six airlines has generally
declined since 2002.

                    Table 4. Rewards as a Percentage
                      of Revenue Passenger Miles
                  Airline            2002          2003   2004   2005
                American*            8.1%          7.8%   7.5%   7.2%
                Continental          8.1%          7.6%   5.6%   7.0%
                Delta                9.0%          9.0%   8.0%   9.0%
                Northwest            7.8%          7.5%   6.9%   7.3%
                United               7.8%          9.0%   7.4%   6.6%
                US Airways           6.0%          9.1%   9.1%   9.1%
               *Based on passenger enplanements.


More Ways To Earn Points.
As shown in Figure 3, the           Figure 3. Most Popular Methods
most popular methods for                         To Earn Points
earning points have expanded
                                                    6%            Flying
well beyond air travel. For                     5%
                                                                  Credit Card
example, you can earn                        6%
                                                                  Elite Bonuses
8 points for each dollar spent              9%             43%    Telephone
buying your pet’s medicine                                        Flight Bonuses
online. You can earn 7 points               11%                   Hotels

for each dollar spent by                                          Other
                                                   20%
having H&R Block prepare
your taxes. You can even earn
3 points for each dollar spent by purchasing Tupperware products.

Redemption Value of Points Declines. Generally, the airlines have two levels of
awards: a standard award requiring the least number of points to redeem a ticket
and a premium award requiring up to twice the number of points for a ticket. As
shown in Table 5, premium awards value the frequent flyer points less than
standard award levels since it takes more frequent flyer points for a premium
award ticket than a standard award ticket.
                                                                                                                     25


                            Table 5. Redemption Value of Points
                            Standard Award vs. Premium Award
                    Standard Award                              Mileage Lowest Fare*                  Value-Dollar
                                                                Points
 Washington, DC, to Seattle (Aug 16-23)                         25,000    $462.70                          .0185
 Chicago to West Palm Beach (Sep 21-28)                         25,000    $267.10                          .0107
 Detroit to San Antonio (Aug 5-12)                              25,000    $442.20                          .0177
 Cincinnati to Phoenix (Sep 21-28)                              25,000    $419.60                          .0168
              Premium Award
 Washington, DC, to Seattle (Aug 16-23)                         45,000             $462.70                 .0103
 Chicago to West Palm Beach (Sep 21-28)                         45,000             $267.10                 .0059
 Detroit to San Antonio (Aug 5-12)                              45,000             $442.20                 .0098
 Cincinnati to Phoenix (Sep 21-28)                              45,000             $419.60                 .0093
* Even with a fare as high as $1,000, redemption value at the standard award is still only 4 cents per mileage point and
  2 cents per mileage point at the premium award level.

The non-air travel opportunities to use points are increasing as well. However, in
some cases the value of the points is a fraction of what it would be worth if they
were redeemed for air travel. For example, one airline allows a customer to use
96,500 mileage points to purchase a Sharper Image Portable GPS Range Finder
for golf. The value of the item is $349.95—making the value of the points about
one-third of 1 cent.

Inability To Redeem Awards Is the Most Prevalent Complaint Among
Frequent Flyer Members
As frequent flyer redemptions have declined overall since 2002, a common and
growing cause of complaints is the inability to book tickets using the standard
award level.

Most airlines acknowledged the limitation of awards at the standard award level.
Based on a sample of 598 frequent flyer complaints received by 1024 airlines
between January and December 2005, we found that 137 complaints (23 percent)
were attributed to the customer’s inability to obtain a standard award. While
frequent flyer complaints represent only about 1 percent (or less) of all complaints
received by DOT, the frequent flyer complaint subcategory “Not Able To Redeem
Miles” grew from 17 percent in 2001 to 38 percent in 2004 but dropped to
26 percent in 2005.



24
     Three airlines (ATA, JetBlue, and Southwest) only have one level of award, and two airlines (Alaska and AirTran)
     did not maintain sufficient information to produce a reliable sample. This reduced the total to 10 airlines reviewed.
                                                                                  26

Even if there were reasonable capacity for redemptions at the standard level, the
flights where seats exist may be ones that are less popular to most travelers.
Examples include overnight flights, flights to Phoenix in August, or flights
requiring multiple connections.

Seats might not be available at all at the standard level on more popular routes that
have reduced capacity. For example, in the first 5 months of 2006, United’s
scheduled seats to Hawaii were down 17 percent over the same period in 2000.
From the United States to London-Heathrow, the number of seats was down
11 percent in the first 5 months of 2006 over 2000 levels.

The prevalence of complaints to the airlines about the inability to redeem free
tickets, especially at the standard awards level, leads us to conclude, just as we did
in our February 2001 report, that consumers need more information about frequent
flyer redemptions. None of the airlines in our review reports frequent flyer
activity for the standard and premium awards levels.

Data on Frequent Flyer Redemptions Should Be Standardized
In our February 2001 report, we recommended that air carriers make available to
the public a more comprehensive reporting of frequent flyer redemptions, such as
percentage of successful redemptions and frequent flyer seats made available in
the airline’s top origin and destination markets. The ATA airlines opposed the
recommendation, and we were unable to obtain this type of information during our
recent review. We acknowledge that maintaining information on unsuccessful
requests for frequent flyer awards could be burdensome, even impossible, because
so many requests are made through the airlines’ Internet sites and not tracked.

Nevertheless, the airlines should make available information that allows
consumers to determine which frequent flyer program would provide the greatest
benefit based on availability of awards at the standard level, awards requiring the
least number of points, or seat availability to top markets. The Department should
examine through rulemaking proceedings the need to standardize the reporting of
airline data on frequent flyer redemptions so that customers can make a more
meaningful comparison of the benefits of each airline’s frequent flyer program.
This information should include the ratio of the number of seats flown by
passengers traveling on frequent flyer rewards to the overall number of seats
available and the total number and percentage of redemptions at both standard and
premium levels. This information should be readily and easily available to
consumers.
                                                                                                                        27

Airlines’ Need To Focus on Promptly Training Personnel Who Assist
Passengers With Disabilities
The ATA airlines committed to disclose their policies and procedures for assisting
special-needs passengers, such as unaccompanied minors, and for accommodating
passengers with disabilities in an appropriate manner.

Federal requirements for accommodating persons with disabilities have been in
existence since the Air Carrier Access Act of 1986 and the promulgation of its
implementing rules in Part 382 of Title 14 of the Code of Federal Regulations,
“Nondiscrimination on the Basis of Disability in Air Travel” in 1990.

A 2005 market study of air travelers with disabilities conducted by a national
polling firm25 found that 84 percent of this group encountered obstacles at US air
carriers and 82 percent reported accessibility problems at airports. These
problems included airport personnel’s lack of awareness regarding services
provided for passengers with disabilities, delays or breakdowns in requested
services, and personnel being insensitive or unwelcoming to people with
disabilities. These problems point to the lack of proper training in assisting
passengers with disabilities, including the proper and safe operation of any
equipment used to accommodate them.

We found that some airline and their contractor personnel who interact with
passengers with disabilities were either not being trained, were not promptly
trained, or were not current with refresher training. We also found that not all
airlines established focus groups to help better address the needs of air travelers
with disabilities and special needs, as we recommended in our 2001 report.

These deficiencies resulted from poor oversight of compliance with the
requirements of Part 382 by both the airlines and OAEP. Without ensuring
compliance with Federal regulations, the airlines and the Department have no
assurance that personnel interacting with the traveling public have the necessary
level of training to assist persons with a disability appropriately. As discussed
later in this report, the Department received additional resources to improve air
transportation access for passengers with disabilities by ensuring compliance with
Federal requirements.




25
     The Open Doors Organization, a non-profit group, commissioned Harris Interactive to conduct a quantitative study
     among US adults with disabilities to identify the general travel habits and patterns of adults with disabilities. One of
     the objectives was to gauge experiences with airlines, airports, car rental agencies, hotels, and restaurants. Open
     Doors’ web site is www.opendoorsnfp.org.
                                                                                                                     28

Airlines Need To Place Greater Emphasis on Part 382 Training
Under Part 382, air carriers are required to ensure personnel who deal with the
traveling public are trained to proficiency in assisting passengers with disabilities,
as appropriate to their duties, such as the proper and safe operation of any
equipment used to accommodate those passengers (e.g., wheelchairs). The air
carrier must also train these employees about awareness and appropriate responses
to persons with a disability. Training must be completed within 60 days of the
employees assuming their duties.26 Refresher training is left up to the discretion of
the air carrier, so long as personnel maintain proficiency.

In our prior review, the airlines performed well with respect to this provision. In
our current review, however, we found that some airline and contractor personnel
who interact with passengers with disabilities were not trained, were not promptly
trained, or were not current with refresher training. We tested the airlines’
compliance with selected aspects of Part 382, including training of airline and
contract personnel in assisting passengers with disabilities and timely
responsiveness to complaints.

Airline and Contractor Personnel Training. We reviewed training records27 for
1,073 airline employees28 at 15 selected airports nationwide and found that
166 employees (over 15 percent) from 11 of the 15 airlines were deficient in some
aspect of their training.

       • At 6 airlines, 51 employees either failed to receive initial training or
         received initial training late or the airline was unable to provide records to
         support the completion of training.

       • At 9 airlines, an additional 115 employees either failed to receive refresher
         training or received refresher training late or the airline failed to document
         completion of refresher training. Although Part 382 requires air carriers or
         their contractors to provide refresher training as needed to maintain
         proficiency, 13 of the 15 airlines we visited required annual refresher
         training for their employees.

We also reviewed the training records of 306 contractor personnel at 10 airports
and found similar problems with 71 contractor employees (over 23 percent) for
5 airlines. We found that:



26
     Under Part 382, crewmembers (i.e., pilots and flight attendants) are required to complete training before they assume
     their duties.
27
     There is no requirement under Part 382 for air carriers to maintain employee training records.
28
     Our review of employee training records focused on airline and sub-contractor customer service employees.
                                                                                                                        29

      • 21 contractor employees either received initial training late or the airlines
        were unable to provide training records.

      • The remaining 50 employees failed to receive refresher training or did not
        receive it promptly.

      • One airline was not providing initial or refresher training for contractor
        personnel.

Training Inconsistencies Are a Frequent Complaint. The airlines need to
refocus their attention in the area of training and service. In fact, advocacy groups
representing passengers with disabilities have consistently identified the on-going
problems with training airline personnel to properly assist passengers with
disabilities. The National Council on Disability29 frequently hears complaints
from passengers with disabilities about the airlines’ training inconsistencies.

In its Air Travel Consumer Report, DOT reports that civil rights complaints filed
by air travelers with disabilities were on the rise from 345 complaints in 1997 to a
peak of 676 complaints in 2000, almost doubling the amount of complaints since
1997 (see Figure 4). While complaints declined from 2000 through 2003, they are
on the rise again, and the airlines cannot be complacent. The top complaint by
passengers with disabilities was failure to provide adequate or timely assistance
(51 percent).

                       Figure 4. Number of Complaints Filed By
                            Air Travelers With Disabilities


 700
                                                   676
 600                                    595

                                                               504                                521        507
 500
                                                                           477
 400
                            374                                                       373
                345
 300
            1997        1998       1999        2000     2001          2002        2003        2004       2005
                                                   Year




29
     The National Council on Disability is an independent Federal agency making recommendations to the President and
     Congress for enhancing the quality of life for all U.S. citizens with disabilities and their families. It is composed of
     15 members appointed by the President and confirmed by the U.S. Senate.
                                                                                  30

Establishment of Focus Groups. In our 2001 report, we recommended the ATA
airlines consider establishing advisory councils, including persons with
disabilities, to help better address the needs of air travelers with disabilities and
special needs. However, only six ATA airlines and one non-ATA airline did so.
Seven of the other eight airlines who did not implement the recommendation did
obtain input from interest groups to help address the needs of this group of air
travelers. Those airlines that have not already done so need to consider
establishing advisory councils that include persons with disabilities to help better
address the needs of these air travelers.

OAEP Needs To Improve Oversight, and Certain Provisions in the
Regulation Need Strengthening
The immediate solution to ensure that the airlines and their contractors are
complying with their own policies and DOT rules for accommodating air travelers
with disabilities is for OAEP to closely monitor the airlines’ compliance, as well
as their contractors’ compliance. This will ensure that all employees who require
training receive it.

Although 14 airlines use contractors to assist passengers with disabilities,
oversight of contractor compliance with Part 382 varies from no oversight by
some airlines, to informal observations or reviews, to reliance on customer service
complaints, to established performance tracking systems.

The two ATA airlines where we found the most training deficiencies have never
had their training programs for assisting passengers with disabilities and special
needs examined by the Department. In fact, OAEP’s most recent review of
Part 382 compliance was limited and did not include a review of the training
records of either the airlines’ employees or contractor employees.

More importantly, however, is a need to strengthen the requirements in Part 382 to
ensure greater responsibility and accountability of the air carriers and their
contractors. Part 382 should be changed to require:

   • All employees of air carriers or contractors whose job duties involve
     assisting passengers with disabilities be trained before taking on those
     duties. Requiring passing a test before beginning work should also be
     considered. The current rule allows up to 60 days to train the employee,
     and testing is not required.

   • All employees whose job duties involve assisting passengers with
     disabilities receive mandatory annual refresher training. Under the current
     rule, aside from employees designated as complaint resolution officials,
                                                                                  31

       annual refresher training is not required and refresher training simply must
       be completed as needed to maintain proficiency.

   • Air carriers and their contractors to maintain employee training records for
     a minimum of 1 year. Part 382 does not require air carriers to keep or
     maintain records of individuals trained and dates of training.

   • Air carriers to ensure contractor employees assisting passengers with
     disabilities get the required training. The current rule is ambiguous
     regarding air carrier oversight responsibilities of their contractor training
     programs and employee on-the-job performance. The rule simply states
     that each air carrier “shall provide, or require its contractors to provide,
     training to the contractors’ employees concerning travel by individuals with
     a disability.”

Airlines Need To Resume Efforts To Self-Audit Their Customer
Service Plans
In our 2001 report, we recommended that the ATA airlines establish quality
assurance and performance measurement systems and conduct internal audits to
measure compliance with the Commitment provisions and customer service plans.
The key to success of the customer service plans was the need for each airline to
have a credible tracking system for compliance with each provision and the
implementation of the customer service plan, buttressed by performance goals and
measures.

In June 2001, in a hearing before the US House of Representatives Committee on
Transportation and Infrastructure Subcommittee on Aviation, ATA, on behalf of
its member airlines, committed to establishing internal performance measurement
systems and audit procedures to measure compliance with their customer service
plans. At that time, we confirmed that 12 of the 14 ATA airlines had internal
performance measurement systems and audit procedures in place and that the
remaining two airlines were finalizing their performance measurement systems.

However, during our current review, we found that only five ATA airlines
currently have quality assurance and performance measurement systems and
conduct internal audits to measure compliance with the Commitment and their
customer service plans. The other ATA airlines either discontinued their customer
service internal audit activities after the events of September 11th or combined this
activity with their operations or financial performance review, where the
Commitment provisions are overshadowed by operational or financial issues. We
also found that the non-ATA airlines do not have comprehensive quality assurance
and performance measurement systems or conduct internal audits to measure
compliance with their customer service plans.
                                                                                 32

A quality assurance and performance measurement system is necessary for each
airline to have a credible system for ensuring compliance with its customer service
policies and procedures. Those airlines that have not already done so need to
implement quality assurance and performance measurement systems and conduct
internal audits. OAEP should use these systems to review more efficiently the
airlines’ compliance with those Commitment provisions governed by Federal
regulations.

The Department Needs To Improve Its Oversight of Air Traveler
Consumer Protection Requirements
The Airline Deregulation Act of 1978 gives the Secretary the authority to
investigate and take enforcement actions against carriers engaging in unfair and
deceptive practices and unfair methods of competition. OAEP is the division
within the Office of the General Counsel that enforces DOT’s air travel consumer
protection rules. These rules encompass many areas, including unfair and
deceptive practices and unfair methods of competition by carriers and travel
agents. OAEP also investigates and enforces violations of rules governing denied
boarding compensation, access for travelers with disabilities, and ticket refunds.
When violations occur, OAEP can pursue enforcement action, which may range
from warning letters to litigation in U.S. District Courts.

We found that while OAEP has made efforts to enforce civil rights violations, it
needs to improve its oversight of consumer protection laws, including its efforts to
monitor compliance with the terms and conditions of enforcement actions. In
recent years, OAEP has not conducted on-site compliance reviews, relying instead
on air carriers’ self-certifications and company-prepared expense summaries
submitted without supporting documentation. OAEP currently uses an outdated
manual monitoring system to track milestones and due dates and relies on
“institutional memory” to track prior actions against air carriers. An electronic
information system will be necessary to effectively monitor compliance with
enforcement cases and ensure that the Office’s mission is not compromised during
cycles of employee attrition.

We also found that, until recently, OAEP’s toll-free hotline for air travelers with
disabilities was underutilized and consumed significant financial resources—
resources that can potentially now be used to support increased enforcement
activities including on-site compliance inspections. In addition, these funds could
also be used to reinstate other types of consumer protection activities, such as
investigating the availability of advertised fares and consumers’ ability to redeem
frequent flyer awards.
                                                                                         33

OAEP Needs To Increase Its Efforts To Monitor Enforcement Actions
Taken Against Air Carriers and Other Providers of Air Service
Most of OAEP’s formal enforcement activities involve consent orders issued
against air carriers or other providers or sellers of air service that OAEP enters into
with the alleged violator. The consent orders we reviewed contained cease-and-
desist provisions and assessed penalties that ranged from $0 to $1.5 million. The
higher penalties were assessed primarily in 2003 and 2004 following the
enactment of the Wendell H. Ford Aviation Investment and Reform Act for the
21st Century (AIR-
                               Figure 5. Penalties Assessed by OAEP and
21)           mandating
numerous additional
                                           Amounts Collected After Offsets
consumer protection
responsibilities to be          $9,000,000

carried out by OAEP,            $8,000,000             Assessed Amount
such as a provision             $7,000,000             Collected Amount
requiring individual,           $6,000,000
comprehensive
                                $5,000,000
investigations of each
                                $4,000,000
disability-related
complaint received by           $3,000,000

OAEP (see Figure 5).            $2,000,000

Since 1996, OAEP                 $1,000,000

has           negotiated                 $0
233 consent       orders                    1996 1997 1998 1999 2000 2001 2002 2003 2004 2005
with air carriers and         Note: 2005 is partial year data.
other providers or
sellers of air services, with penalties totaling $21.8 million.

We reviewed 121 of the consent orders signed between 1996 and 2005 relating to
advertising (78), civil rights (30), and “other” consumer matters (13). The
penalties assessed in these orders totaled $14.9 million, of which OAEP actually
collected $2.1 million after offsets or forgiveness provisions.

OAEP believes these forgiveness provisions and offsets are a better way to effect
positive change than merely assessing a financial penalty. The intent is for the
forgiveness provisions to provide an incentive for future compliance and for the
offset to be used to improve service to consumers above and beyond what is
required by existing rules or the carrier’s contract of carriage. Without these for-
giveness provisions and offsets, penal-ties would simply be deposited into the U.S.
Treasury’s General Fund.

Forgiveness or offset provisions were contained in 105 of the 121 consent orders
we reviewed. Forgiveness provisions allow for a portion of the penalty to be paid
                                                                                                                          34

up front and another portion to be suspended for a period of time (usually 1 or
2 years), after which time the suspended amount will be forgiven if the violator
has committed no further violations. Offset provisions allow for a portion of the
penalty to be paid up front, with another portion to be credited against the amount
assessed if the violator complies with certain conditions.

Most of the orders we reviewed had penalties that were split 50-50—one-half
collected up front and the other half forgiven. In some cases, however, most of the
penalty was offset if the air carrier agreed to invest like funds to improve service
for consumers above and beyond what is required by existing rules or the carrier’s
contract of carriage. For example, one air carrier was assessed a fine of $100,000
for non-compliance with disability requirements. Of that, $90,000 was offset
because the air carrier established a consumer advisory group and provided
information on their web site about the DOT toll-free hotline.

OAEP Should Verify Air Carrier Action Was Taken To Comply With
Consent Orders
From the 121 cases we reviewed, we randomly selected 20 consent orders to
review the case monitoring files. Twelve of the 20 cases contained no evidence of
monitoring—OAEP does not take special action to monitor compliance with
forgiveness provisions for consent orders covering advertising violations.30 The
other eight cases documented different degrees of monitoring activity. Examples
follow.

       • A company-prepared spreadsheet was submitted to document expenses
         incurred on a disability-awareness program. No support was provided for
         the spreadsheet, but the air carrier advised that, “the costs were calculated
         on the basis of voluminous employee, payroll and other files.” There was
         no indication that the air carrier’s costs had been verified.

       • Sworn certifications were submitted stating that civil rights training had
         been provided for all employees who interact with passengers. The airline
         provided no documentation to support that the training has in fact been
         received, (e.g., class sign-in sheet, agenda, or training materials) and there
         was no indication that OAEP had reviewed the training records or made
         any other attempts to validate the certifications.

       • One consent order, with a $90,000 penalty offset, required the airline to
         certify in writing that it had met three conditions within 1 year of the
         August 2003 order date. Although there is no evidence that OAEP received

30
     Most of these cases involved advertising infractions that relate to fare display (disclosure of fees, taxes, restrictions)
     where there is clear evidence of non-compliance. The Department indicated that it does take action to collect
     suspended penalties when violations are discovered, although we did not verify this during our audit work.
                                                                                                                 35

           this certification by August 2004, the carrier was allowed to offset the
           entire $90,000 at that time. The last documented monitoring activity, prior
           to our office inquiring about this matter, was in January 2004 when OAEP
           confirmed that the carrier had implemented one of the three specified
           accommodation measures.

           OAEP did contact the airline to request verification of compliance when
           our office inquired about this case in February 2006. The airline responded
           affirmatively, albeit 18 months after the $90,000 penalty was offset. OAEP
           believes the required documentation was provided by the carrier in August
           2004 but attributes its failure to locate the certification to the difficulty in
           managing cases and maintaining document controls without a central
           tracking system, particularly in this case where there was staff turnover.
           The carrier was also not able to provide proof of timely compliance.

To ensure air carrier compliance with the terms and conditions of consent orders,
OAEP must verify that the terms and conditions have been met before forgiving
any penalties. We are recommending that OAEP require documented proof—such
as invoices, contracts, and receipts—of compliance with conditions of penalty
offsets. OAEP should also verify compliance with advertising cease-and-desist
orders before forgiving any penalties.

The Department Should Make Enforcement Monitoring a Priority and
Direct Its Resources Accordingly
In April 2000, Congress passed legislation31 that significantly increased the
Department’s responsibilities, especially as they relate to civil rights violations
such as disability-related issues. In FY 2002, at our recommendation, Congress
provided $942,000 to fund activities and personnel in OAEP, primarily to
implement OAEP’s Accessibility for All America program—an effort aimed at
improving access to the air transportation system for passengers with disabilities.

Staffing levels in the program have declined from a high of 40 in 2003 to 33 in
2006 because OAEP has not been permitted to fill positions vacated through
attrition.




31
     The Wendell H. Ford Aviation Investment and Reform Act for the 21st Century (AIR-21), Public Law 106-181.
                                                                                                              36

OAEP resources for on-site visits
                                                 Figure 6. OAEP Travel Expenditures
to verify compliance with
orders have also declined. As                     $90,000
Figure 6 illustrates, travel                      $75,000
funds—especially those for
                                                  $60,000
enforcement and compliance
purposes—have          declined                   $45,000

significantly   since    2003.                    $30,000

Between 2003 and 2005, travel                     $15,000
funding for compliance and                             $0
enforcement purposes declined                                   2001    2002         2003    2004     2005
from $51,000 to $3,500.                                 Other      Public Outreach     Enforcement   Compliance


The Department needs to develop mechanisms to strengthen enforcement
monitoring, despite budgetary constraints. In the absence of physical verification
of compliance, OAEP must rely on self-certification by the air carriers and other
providers of air services. Certifications may be appropriate in some cases, but
they should not supplant physical verification, especially in cases resulting from
severe consumer harm (e.g., a pattern of civil rights violations). To the extent
possible, the Department should make enforcement a priority and direct sufficient
resources for staff to conduct on-site compliance verification.

An alternative to OAEP staff verification could be to require the carrier, as part of
its offsetting requirements, to contract with a neutral third-party to independently
verify that the conditions of the consent order have been met. For example, if the
Department enters into a consent order for $250,000 with an offset of $200,000 if
certain conditions are met, one of those conditions could be to use an appropriate
amount of funds to hire a third-party compliance monitor.

To Improve Its Oversight, OAEP Needs To Make Fully Operational an
Electronic Case-Monitoring System
OAEP staff attorneys, on average, handle about 17 cases or projects.32 At any
given time, OAEP has 200 to 300 active projects or cases. Despite its increased
oversight responsibilities, OAEP has no electronic case monitoring system to track
changes in case status. Before 2004, cases and projects were not centrally tracked
at all. The current system is manual and accomplished through biweekly updates
that are reviewed by the office management. These reports are 10 to 15 pages of
narrative that provide sporadic updates of cases that can span several years.
Tracking the progress of an enforcement action requires tracing the case manually
through these biweekly reports.

32
     Among other duties, OAEP also participates in rulemakings, prepares technical assistance manuals, provides
     outreach to the disability community, and participates in air carrier fitness determinations.
                                                                                  37

Attorneys monitor their own cases to ensure that air carriers comply with the
provisions of the consent orders within the timeframe specified, and that
documentation verifying the cost and implementation of each offset is submitted.
Most of these cases have staggered milestones and deadlines, which the attorneys
must track individually. There is no standard protocol for case monitoring—each
attorney has the latitude to develop his or her own system—which not only makes
it difficult for managers to ensure effective oversight in real time but makes it
extremely burdensome for managers to locate records documenting prior activity
after attorneys leave. OAEP is in the process of developing an electronic
monitoring system and expects it to be fully operational in FY 2007.

Without a fully operational electronic case monitoring system, OAEP does not
have a central, automatic means to ensure all offenders are being monitored or to
identify repeat offenders—functions that are currently performed via “institutional
memory” and paper records. This ad hoc monitoring is not sufficient to ensure
continuity of OAEP’s mission through cycles of employee attrition. One-quarter
of the professional staff in OAEP are currently eligible to retire, including the top
three managers.

OAEP’s Toll-Free Hotline for Passengers with Disabilities Is Underutilized
OAEP operates a toll-free hotline for airline passengers with disabilities to resolve
time-sensitive disability-related disputes. Since the toll-free hotline began
operations in August 2002, the contractor-operated hotline has received about
17 calls per week, at an average cost per call of about $1,200. In October 2006,
well after we started our audit, the Department began to operate the hotline
in-house, a move that OAEP estimates will save approximately $400,000 in
budgeted FY 2007 funds and bring the cost per call down to under $25. Bringing
the hotline operations in-house frees up funds that can potentially be used to
support OAEP’s oversight and enforcement of air carriers’ compliance with air
traveler consumer protection rules.

Legislative Requirements and Administration Priorities Have Curtailed
OAEP’s Traditional Consumer Protection Activities
New laws contain mandates under which OAEP has to assume numerous
additional consumer protection responsibilities, including a new aviation civil
rights provision; a provision requiring individual, comprehensive investigations of
each disability-related complaint received by OAEP; a provision extending the air
carrier disabled passenger discrimination law (Air Carrier Access Act) to foreign
air carriers; and new data collection and reporting requirements. These
requirements have taken resources away from OAEP’s other responsibilities that
focus on consumer economic protections.
                                                                                                                  38

The consumer protection activities that have been curtailed include investigating
the availability of advertised fares and consumers’ ability to redeem frequent flyer
awards. OAEP has stated that both of these functions are part of its responsibility
in enforcing the regulations against false and deceptive practices. As the current
market of reduced seat capacity along with deeply discounted fares translates into
higher load factors and fewer seats available for redeeming frequent flyer awards,
OAEP needs to be vigilant of the promises airlines are making to consumers
regarding their frequent flyer programs and their actual ability to deliver.

Since 1996, OAEP has taken action in only two instances of insufficient capacity
at the lowest advertised fare. As part of our review, we performed a simple test to
determine whether customers can reasonably obtain advertised fare specials at
each of the 16 airlines.33 We tested 449 city-pairs and were able to obtain the
advertised fare for 379 of the city-pairs or 84 percent of the time. Obtaining the
advertised sale fare 84 percent of the time represents a fairly reasonable
percentage; nevertheless, in our opinion, not getting the fare sale 16 percent of the
time is an adequate reason for OAEP to verify fare sale availability. OAEP’s
Aviation Consumer Protection Division has reported that, on occasion, it does
mass callings to verify availability of advertised fares, but does not document its
findings. OAEP needs to continue its efforts to verify availability of advertised
fares and document its findings.

RECOMMENDATIONS
In order to strengthen the Department’s oversight and enforcement of air traveler
consumer protection provisions, we are making the following recommendations to
the Acting General Counsel:

       1. Work with BTS to prominently display a direct link on its Internet home
          page to on-time performance statistics by flight number.

       2. Direct OAEP to revisit its current position on chronic delays and
          cancellations and take enforcement actions against air carriers that
          consistently advertise flight schedules that are unrealistic, regardless of the
          reason.

       3. Determine whether (a) the maximum denied boarding compensation
          amount needs to be increased and (b) denied boarding compensation needs
          to be expanded to cover aircraft with 31 to 60 seats.



33
     We tested US Airways and America West separately because their Internet site reservations systems had not yet been
     combined at the time of our tests.
                                                                               39

   4. Examine through rulemaking proceedings the need to standardize the
      reporting of airline data on frequent flyer redemptions so that customers
      can make a more meaningful comparison of the benefits of each airline’s
      frequent flyer program.

   5. Strengthen requirements in Part 382 to require (a) all employees of air
      carriers or contractors whose job duties involve assisting passengers with
      disabilities must first be trained before taking on those duties and receive
      annual refresher training, (b) air carriers and their contractors maintain
      employee training records, and (c) air carriers to ensure contractor
      employees assisting passengers with disabilities are in compliance with
      Part 382.

   6. Direct OAEP to develop strategies to more effectively monitor air carrier
      compliance with Federal requirements governing air travel consumer
      protection provisions and to verify air carrier compliance with the terms
      and conditions of consent orders, including those that involve advertising
      infractions. In the absence of sufficient funds for OAEP staff to verify
      compliance, OAEP could require the carrier, as part of its offsetting
      requirements, to contract with a neutral party to independently verify that
      the conditions of the consent order have been met.

   7. Ensure that OAEP fully implements its centralized electronic case
      monitoring system to track and manage its projects and enforcement
      activities.

   8. Direct OAEP to resume efforts to oversee and pursue enforcement action,
      as appropriate, regarding the availability of seats at the lowest advertised
      fares and consumers’ ability to redeem frequent flyer awards.

AGENCY COMMENTS
OAEP officials generally agreed with our findings and recommendations. In
September OAEP officials provided their comments, which were incorporated into
this report as appropriate.
                                                                                                       40
                 EXHIBIT A. AIRLINE CUSTOMER SERVICE COMMITMENT


                       AIRLINE CUSTOMER SERVICE COMMITMENT
                                    June 17,1999

      The member carriers of the Air Transport Association (ATA) are committed to providing the best
      level of service to our customers. In recent months, there has been an increasing recognition of
      the need to improve airline passenger service. As a result, the ATA carriers, working with
      Members of Congress, have developed an Airline Customer Service Commitment, and each
      carrier will develop its individual Customer Service Ptan to demonstrate our ongoing dedication
      to improving air travel.

      The ATA carriers hereby commit to:

         Offer the lowest fare available
         Each airline wiil offer the lowest fare available for which the customer is eligible on the
         airline's telephone reservation system for the date, flight and class of service requested.

         Notifv customers of known delays. cancellations and diversions
         Each airline wilt notify customers at the airport and on board an affected aircraft, in a timely
         manner, of the best available information regarding known delays, cancellations and
         diversions. In addition, each airline will establish and implement policies for accommodating
         passengers delayed overnight. A dear and concise statement of airlines' policies in these
         respects will also be made available to customers.

         On-time bauuaqe deliverv
         Each airline will make every reasonable effort to return checked bags within 24 hours and
         will attempt to contact any customer whose unclaimed, checked luggage contains a name
         and address or telephone number.

          Suo~ortan increase in the baaoaqe liability limit
          The airlines will petition the Department of Transportation within 30 days to consider an
          increase in the current baggage liability limit. [Since 1984, DOT rules provide baggage
          liability of $1250.1

          Allow resenrations to be held or canceled
          Each airline will allow the customer either to hold a telephone reservation without payment
          for 24 hours or (at the election of the carrier) to cancel a reservation without penalty for up to
          24 hours, in order to give customers an opportunity to check for lower fares through other
          distribution systems, such as travel agents or the Internet.

          Provide nrom~tticket refunds
          Each airline will issue refunds for eligible tickets within 7 days for credit card purchases and
          20 days for cash purchases.

          Pro~erlvaccommodate disabled and special needs passenaers
          Each airline will disclose its policies and procedures for handling special needs passengers,
          such as unaccompanied minors, and for accommodating the disabled in an appropriate
          manner.




Exhibit A. Airline Customer Service Commitment
                                                                                                         41



        Meet customers' essential needs durinq long on-aircraft delavs
        The airlines will make every reasonable effort to provide food, water, restroom facilities and
        access to medical treatment for passengers aboard an aircraft that is on the ground for an
        extended period of time without access to the terminal, as consistent with passenger and
        employee safety and security concerns. Each carrier will prepare contingency plans to
        address such circumstances and will work with other carriers and the airport to share
        facilities and make gates available in an emergency.

        Handle "bum~ed"     Dassensers with fairness and consistency
        Each airline will disclose to a passenger, upon request, whether the flight on which the
        passenger is ticketed is overbooked, if, within the usual and ordinary scope of such
        employee's work, the information is available to the airline employee to whom the request is
        directed. Each airline will also establish and disclose to the customer policies and
        procedures, including any applicable requirements (such as check-in deadlines), for
        managing the inability to board all passengers with confirmed reservations.

        Disclose travel itinerarv, cancellation policies, freauent flyer rules, and aircrafi conficruration
        Each airline will disclose to the customer:
        (i)        any change of aircraft on a single flight with the same flight number;
        (ii)       cancellation policies involving failures to use each flight segment coupon;
        (iii)      rules, restrictions and an annual report on frequent flyer program redemptions;
                   and
        (iv)        upon request, information regarding aircraft configuration, including seat size and
                   pitch.

        Ensure aood customer service from code-share wartners
        Each airline will ensure that domestic code-share partners make a commitment to provide
        comparable consumer plans and policies.

        Be more res~onsiveto customer comwlaints
        Each airline will assign a Customer Service Representative responsiblefor handling
        passenger complaints and ensuring that all written complaints are responded to within 60
        days.

     Each airline will develop and implement a Customer Service Plan for meeting its obligations
     under the Airline Customer Service Commitment. Customer Service Plans will be com~leted
     and published within 90 days and will be fully implemented within 6 months.

     Airline implementation will include training for airline reservation, customer service and sales
     personnel to enhance awareness of the responsibilities involved in implementation of the
     Customer Service Commitment and Plans.

     The Airlines will publish and make available their Customer Service Plans:

            (i)     on airline Internet web sites;
            (ii)    at airports and ticket offices (upon request); and
            (iii)   to travel and reservation agents.

     Upon completion and publication of the Customer Service Plans, the Airlines will notify and
     provide copies to Congress and the Department of Transportation. The Airlines expect and will
     cooperate fully in any request from Congress for periodic review of compliance with the
     Customer Service Commitment.




Exhibit A. Airline Customer Service Commitment
                                                                                              42




      Signed   w???
                                                 Carol B. Hallett
                                                 President and Chief Executive Officer
                                                 Air Transport Association of America, lnc.


      On behalf of,


      Alaska Airlines
      Aloha Airlines
      America West Airlines
      American Airlines
      American Trans Air
      Continental Airlines
      Delta Air Lines
      Hawaiian Airlines
      Midwest Express Airlines
      Northwest Airlines
      Southwest Airlines
      Trans World Airlines
      United Airlines
      US Airways




Exhibit A. Airline Customer Service Commitment
                                                                                 43



EXHIBIT B. OBJECTIVES, SCOPE AND METHODOLOGY, AND
PRIOR COVERAGE

Objectives
In response to a request by Representative John L. Mica, Chairman, Committee on
Transportation and Infrastructure, Subcommittee on Aviation, the Office of
Inspector General (OIG) conducted a follow-up review of implementation of
selected provisions of the Airline Customer Service Commitment by 15 U.S.
airlines. The audit focused on the following provisions and issues that derive from
them: (1) notification of delays and cancellations, (2) overbooking and denied
boardings, (3) frequent flyer program issues, and (4) accommodating passengers
with disabilities and special needs.

The audit also examined how the Department has used the additional resources
that Congress provided to oversee and enforce requirements that protect the air
travel consumer. We also followed up on a promise made by the Airlines to
establish quality assurance and performance measurement systems to measure
compliance with the Commitment provisions and conduct internal audits.

Scope and Methodology
Audit work for this report was conducted between September 7, 2005 and June 28,
2006 and was conducted in accordance with Generally Accepted Government
Auditing Standards as prescribed by the Comptroller General of the United States.
In the conduct of this audit, we relied on computer-generated data from the airlines
and did not access the general and application controls for each of the automated
systems.

During the course of the audit, we met with and obtained data from officials in the
Department’s OAEP within the Office of General Counsel and from the BTS, both
located in Washington, DC, and FAA’s Air Traffic Control System Command
Center, located in Herndon, VA. We also met with executives of the ATA, the
Regional Airline Association, the Air Carrier Association of America, and various
industry groups to solicit feedback on implementation of the selected provisions.

To evaluate the performance of each airline’s implementation of the selected
provisions and other issues, we visited the corporate offices and various airport
facilities of 13 ATA-member airlines and 2 non-ATA airlines. We interviewed
officials responsible for the policies regarding notifying passengers of delays and
cancellations, compensating passengers who voluntarily relinquish their seats,
reporting frequent flyer redemptions, accommodating passengers with disabilities
and special needs, determining prices and availability of advertised special fares,
and implementing the quality assurance and performance measurement system.

Exhibit B. Objectives, Scope and Methodology, and Prior
Coverage
                                                                                  44


We reviewed airline policies, procedures, and practices for implementing the
selected provisions and associated laws and developed protocols to test provision
compliance. We also performed audit work at 17 airports throughout the country
to observe and test individual airlines’ policies and procedures. As part of our
airport observations, we conducted limited reviews of how delayed and canceled
flights were handled. Our observations were a snap-shot in time and were
conducted only when a flight delay or cancellation presented itself. We also note
that some airlines had more observations than others. For two airlines, there were
no delays to observe during our visit to their airports. Also, we reviewed the
airlines’ customer service plans and contracts of carriage to determine if the
provisions of the Commitment remained incorporated in these documents.

We used statistical sampling techniques to test whether (1) airlines were
consistently compensating passengers who voluntarily gave up their seats,
(2) airline and contractor personnel responsible for accommodating passengers
with disabilities and special needs were receiving the required training, and (3) the
responses to complaints made by passengers with disabilities were within the
required timeframe. Other provisions and issues were tested using judgmental
samples of practices and procedures as we deemed necessary.

During our review of OAEP, we reviewed the office’s efforts to enforce consumer
protection laws and monitor actions taken against carriers. To do this, we
reviewed 121 consent orders with penalties ranging from $0 to $1.5 million. We
also evaluated efforts to monitor false and deceptive actions related to chronically
delayed and canceled flights and to the availability of advertised special fares and
frequent flyer seats. To do so, we researched existing laws, regulations, and
orders related to the Department’s oversight and enforcement authority;
interviewed officials responsible for collecting and analyzing data, monitoring
practices, and taking enforcement actions; identified past and current enforcement
actions; and identified trends in consumer complaints. We also performed simple
tests of (1) obtaining on-time performance information by making 160 calls to the
airlines’ telephone reservation systems to determine if their customer service
representatives were providing accurate on-time performance information for
selected flights and (2) ticket availability for 449 city-pairs to determine if
customers could reasonably obtain advertised fare specials at each of the airlines.

Prior Audit Coverage
On June 27, 2000, the OIG issued Report No. AV-2000-102, “Interim Report on
Airline Customer Service Commitment,” on the 6-month progress of the airlines in
implementing their customer service plans. The Interim Report provided the
preliminary results and observations on the ATA airlines’ systems to measure
performance against their plans, discussed the ATA airlines’ contracts of carriage
in relation to their plans, provided observations of the Department’s capacity to

Exhibit B. Objectives, Scope and Methodology, and Prior
Coverage
                                                                                  45


enforce consumer protection rights, and discussed the importance of customer
service in the marketplace.

In February 2001, we issued “Final Report on Airline Customer Service
Commitment.”34 Overall, we found that the airlines were making progress toward
meeting the Commitment and that the Commitment had been beneficial to air
travelers on a number of important fronts. Notwithstanding progress by the ATA
airlines toward meeting the Commitment, we also found significant shortfalls in
reliable and timely communication with passengers by the ATA airlines about
flight delays and cancellations. Further, we found the Commitment did not
directly address the most deep-seated cause of customer dissatisfaction—flight
delays and cancellations, and what the Airlines plan to do about them in the areas
under their control in the immediate term.

On June 20, 2001, the OIG presented testimony35 before the House Transportation
and Infrastructure Committee, Subcommittee on Aviation regarding progress
made by 14 ATA airlines in improving customer service since our 2001 report.
We reported that most airlines had: (1) incorporated the original Airline Customer
Service Commitment into their contracts of carriage, (2) established performance
measurement systems, and (3) petitioned DOT to revise regulations for reporting
mishandled baggage and compensating passengers involuntarily bumped from a
flight. The ATA airlines also formed a task force to develop plans for
accommodating passengers delayed overnight, ensuring airport display monitors
are accurate, and providing for passengers’ needs during long on-board delays.
There were several important recommendations that the airlines did not address,
such as petitioning DOT to require that each airline with a frequent flyer program
make available to the public a more comprehensive reporting of frequent flyer
redemption information in its frequent flyer literature and annual reports (e.g., the
percentage of successful redemptions and frequent flyer seats made available in
the airline’s top origin and destination markets).




34
     OIG Report No. AV-2001-020, February 12, 2001.
35
     Testimony No. CC-2001-217, “Status Report on Airline Customer Service.”

Exhibit B. Objectives, Scope and Methodology, and Prior
Coverage
                                           46



EXHIBIT C. LIST OF AIRPORTS VISITED


Chicago O’Hare International

Dallas-Fort Worth International

Dallas-Love Field

Denver International

General Mitchell International/Milwaukee

George Bush Intercontinental/Houston

Hartsfield-Jackson Atlanta International

Honolulu International

Indianapolis International

Minneapolis-St. Paul International

New York-JFK International

Orlando International

Philadelphia International

Phoenix-Sky Harbor International

Ronald Reagan Washington National

Seattle-Tacoma International

Washington Dulles International




Exhibit C. List of Airports Visited
                  United States Department of Transportation
                          Office of Inspector General
                  Compliance with Federal Accessibility Laws


The following pages contain Section 508-compliant versions of data that was
presented in the previous document in a non-compliant way. Although this page,
and all pages that follow, were not part of the original document, they have been
added here to assist screen readers that will be used to read this document
electronically.
Figure 1. Percentage Change in Scheduled Domestic Flights January 2001 through
June 2006 (Base Year 2000)


     Month            Percent
                    Change in
                   Flights from
                       2000
  January-2001         3 percent
 February-2001         2 percent
   March-2001          1 percent
   April-2001          2 percent
    May-2001           1 percent
   June-2001           1 percent
    July-2001          2 percent
  August-2001          1 percent
 September-2001        0 percent
  October-2001        -4 percent
 November-2001       -15 percent
 December-2001       -15 percent
  January-2002       -11 percent
 February-2002       -10 percent
   March-2002        -10 percent
   April-2002         -8 percent
    May-2002          -8 percent
   June-2002          -8 percent
    July-2002         -6 percent
  August-2002         -7 percent
 September-2002      -10 percent
  October-2002       -11 percent
 November-2002       -12 percent
 December-2002       -12 percent
  January-2003       -10 percent
 February-2003       -11 percent
   March-2003        -11 percent
   April-2003        -10 percent
    May-2003         -13 percent
   June-2003         -10 percent
    July-2003         -8 percent
  August-2003        -10 percent
 September-2003     -10 percent
  October-2003      -10 percent
 November-2003      -10 percent
 December-2003       -8 percent
  January-2004       -7 percent
 February-2004       -3 percent
   March-2004        -6 percent
   April-2004        -5 percent
    May-2004         -6 percent
    June-2004        -5 percent
    July-2004        -3 percent
  August-2004        -3 percent
 September-2004      -4 percent
  October-2004       -5 percent
 November-2004       -4 percent
 December-2004       -2 percent
  January-2005       -2 percent
 February-2005       -2 percent
   March-2005        -2 percent
   April-2005        -1 percent
    May-2005         -2 percent
    June-2005        -1 percent
    July-2005         0 percent
  August-2005        -2 percent
 September-2005      -4 percent
  October-2005       -6 percent
 November-2005       -6 percent
 December-2005       -7 percent
  January-2006       -6 percent
 February-2006       -8 percent
   March 2006        -6 percent
   April-2006        -6 percent
    May-2006         -7 percent
    June-2006        -6 percent
Notes:
November 2001 scheduled flights reach lowest point at -15 percent. after 9/11.

April 2003 Iraq War and SARs
Scheduled Flights in July 2005 equals July 2000
Summer 2005 United, US Airways, Delta, and Northwest in bankruptcy
March 2006 fuel up 185 percent from 2000; $2.05 per gallon
Figure 2: Air Travel Consumer Complaints
Source: DOT’s Air Travel Consumer Reports for 2005
Complaint Category         Percent of Consumer
                               Complaints
Flight Problems                     26
Baggage                             23
Reservations,                       11
Ticketing, and
Boarding
Customer Service                   11
Refunds                            10
Other                               9
Disability                          6
Oversales                           4
Note: All numbers are rounded


Figure 3: Most Popular Methods To Earn Points

Method           Percentage
Flying                43
Credit Card           20
Elite Bonus           11
Telephone             9
Flight                6
Bonuses
Hotels                5
Other                 6
Note: All percentages are rounded.


Figure 4: Number of Complaints Filed By Air Travelers With
Disabilities

Year          1997 1998 1999 2000 2001 2002 2003 2004 2005
Complaints 345      374     595      676    504      477     373    521   507
Source: DOT’s Aviation Consumer Protection Division




Figure 5: Penalties Assessed by OAEP and Amounts Collected After
Offsets

          Year              Assessed Amount                 Collected Amount
1996                             $579,000                        $189,500
1997                             $230,000                        $185,000
1998                             $126,000                        $65,000
1999                             $156,000                        $91,000
2000                             $100,000                        $100,000
2001                             $414,000                        $213,000
2002                             $345,000                        $157,500
2003                            $7,720,000                       $532,500
2004                            $4,345,000                       $205,000
2005                             $909,500                        $404,750
Note: 2005 is partial year data




Figure 6: OAEP Travel Expenditures


              Public
   Year      Outreach
                          Compliance
                                       Enforcement         Other

2001         $6,506         $567             $754          $4,094
2002         $16,405       $9,726          $19,845           $0
2003         $23,281       $18,788         $32,246         $8,445
2004         $11,913       $1,581           $9,223         $7,375
2005         $7,832        $1,929          $1,560          $4,100
